                                            D E P A R T M E N T O F T H E T R E AS U R Y
                                                    WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                                       October 07, 2005


       MEMORANDUM FOR Louis King
                      Director, Information Technology Audits
                      Office of the Treasury Inspector General

       FROM:                           Michael R. Phillips
                                       Deputy Inspector General for Audit

       SUBJECT:                        Treasury Inspector General for Tax Administration –
                                       Federal Information Security Management Act Report
                                       for Fiscal Year 2005


       We are pleased to submit the Treasury Inspector General for Tax Administration’s
       (TIGTA) Federal Information Security Management Act (FISMA)1 report for Fiscal
       Year (FY) 2005. The attached spreadsheet presents our independent evaluation of the
       status of information technology security at the Internal Revenue Service (IRS). Our
       evaluation was based on Office of Management and Budget (OMB) reporting
       guidelines.
       During FY 2005, the IRS made strides toward improving security in the bureau. Most
       significantly, the IRS developed a corporate approach to FISMA by elevating its FISMA
       processes and procedures into an enterprise-wide program. A cross-organizational
       FISMA working group was created, reporting to an Executive Steering Committee for
       the development and effective collaboration of FISMA activities. The FISMA working
       group developed a Concept of Operations, established security roles and
       responsibilities, and identified budget and resource requirements. Executive position
       descriptions now reflect security responsibilities. Additionally, a Security Program
       Management Office was established within each business unit to provide guidance and
       consistency across the IRS business units in implementing FISMA requirements. IRS
       business unit owners were more involved in the annual self-assessments of
       applications. In addition, the IRS developed new Plans Of Action and Milestones
       (POA&M) and discarded those used in prior years. The new POA&M process should
       enable the IRS to make risk-based, cost effective decisions to correct security
       weaknesses.



       1
           The FISMA is part of the E Government Act of 2002, Pub. L. No. 107-347, Title III, Section 301, 2002.
                                                         2

Recognizing that it will take time to achieve long-term improvements, we found that the
process changes taken by the IRS have not yet had a positive effect on some
measurements requested by the OMB. Specifically, we noted concerns with the IRS’
system inventory categorization, certification and accreditation, continuous monitoring,
tracking corrective actions, training employees with key security responsibilities,
contractor oversight, and security configuration policies.
As a result, we believe that sufficient attention is not yet being given to the security of all
sensitive systems and to contractor activities. The IRS continues to use a large number
of systems containing sensitive taxpayer data that have been ranked as low risk, most
of which have not been certified and accredited, and have not been adequately tested
on an annual basis.
To complete our review, we chose a representative subset of 17 systems including 7
general support systems2 and 10 major applications.3 We also evaluated certifications
and accreditations for 10 systems, assessed whether employees with significant
security responsibilities were identified and sufficiently trained, and determined the
extent of the IRS’ oversight of contractors who have access to Federal tax data. Our
concerns are outlined below.
Systems Inventory OMB guidance for the FY 2005 FISMA reporting states, “FISMA
applies to information systems used or operated by an agency or a contractor of an
agency or other organization on behalf of an agency. All systems meeting this definition
shall be included in the report.”
The IRS has a total of 280 systems in its inventory which we believe should have been
reported in its FY 2005 FISMA submission. However, the IRS reported 82 general
support systems and major applications, which we believe is contrary to OMB guidance.
The IRS considers the remaining 199 systems to be non-major systems. The IRS
assigned all of its non-major applications to a general support system with the
assumption that the general support systems provide the majority of the security
controls for the non-major applications. For its approach to be effective, the IRS must
assess the risk of all systems, document the controls for each system, and assign
accountability for the specific controls.
Federal Information Processing Standards (FIPS) Publication 199, Standards for
Security Categorization of Federal Information and Information Systems, requires that
the risk of all systems must be categorized as high, moderate, or low considering the
confidentiality, integrity, and availability requirements of the information processed by
the systems. National Institute of Standards and Technology (NIST) Special Publication
800-60, Guide for Mapping Types of Information and Information Systems to Security
Categories, must be used in categorizing the risk for the information systems. The IRS
applied the FIPS 199 security categorization to all of its systems, however, the IRS did
2
  A general support system is an interconnected set of information resources under the same direct management
control that shares common functionality.
3
  A major application requires special management oversight because of the information it contains, processes, or
transmits, or because of its criticality to the organization’s mission.
                                            3

not use the guidance provided in NIST SP 800-60 in performing the risk categorization
of its non-major systems. All non-major applications were ranked as low risk for
confidentiality, integrity, and availability even though several contained sensitive
taxpayer and employee information. NIST SP 800-60 states that taxpayer information
should be considered at least a moderate risk. The risk categorization is important
because it helps determine the level of security controls needed for each system. By
not applying the NIST standards to the non-major applications, sufficient security
controls may not be identified and implemented. The Chief, Mission Assurance and
Security Services (MA&SS) advised that a priority for Fiscal Year 2006 will be to more
thoroughly review and re-validate the currently assigned risk impact levels of its non-
major applications, using the guidance provided in NIST SP 800-60.
National Institute of Standards and Technology (NIST) Special Publication 800-18,
Guide for Developing Security Plans for Federal Information Systems, states that when
non-major applications are bundled with a general support system, the security
requirements for each of the non-major applications be included in the general support
system’s security plan. None of the general support system security plans we reviewed
addressed specific controls for non-major applications nor assigned specific
accountability for those controls.
While the IRS’ general support systems provide security controls to prevent hackers
from entering the network, application-level controls are also critical to prevent
unauthorized accesses to sensitive data by employees and contractors who already
have access to the IRS network. Since risk categorizations have not been applied
using NIST guidelines and because specific controls have not been documented and
accountability for those controls has not been assigned, we are concerned that
business unit owners of non-major applications are relying too heavily on the general
support system controls to protect sensitive data. Results of our review of certifications
and accreditations and annual self-assessments described below add to our concerns.
Certification and Accreditation NIST Special Publication 800-37, Guide for the
Security and Accreditation of Federal Information Systems, requires that all systems
must be certified and accredited every three years or when major changes to systems
occur. In the IRS, the Chief, MA&SS is the certifying authority for all systems. The
Chief, MA&SS must test the systems and provide the results to the business unit owner
along with the systems’ security plans, and POA&Ms to correct weaknesses. Business
unit owners must then evaluate the information and determine whether to accredit the
system, thereby giving it an authority to operate. By accrediting the system, the
business unit owner accepts responsibility for the security of the system and is fully
accountable for any adverse impacts if security breaches occur.
The IRS reported that 90 percent of its 82 general support systems and major
applications were certified and accredited. However, if all systems were reported as we
believe OMB requires, only 35 percent of its 280 systems should have been reported as
certified and accredited.
                                            4

We conducted a more thorough review of 10 systems that had been certified and
accredited to evaluate the IRS process. Our review included documentation for 6
general support systems and 4 major applications. During FY 2005, the IRS prioritized
its efforts by focusing attention first on its general support systems. The IRS certified
and accredited the general support systems in compliance with NIST standards, except
security plans did not include controls for the bundled non-major applications as we
discussed earlier.
The IRS has recently begun to focus attention on improving the certification and
accreditation process for its major applications. In our review of 4 major applications,
System Security Plans and Security Test and Evaluation documents for major
applications did not comply with NIST standards. Controls presented in the plans were
not sufficiently detailed and were not based on risk levels established by FIPS
Publication 199. Tests did not include all system components such as encryption,
telecommunication links, and user account management. Only 16 percent of the
systems we reviewed showed that contingency plans had been tested. The IRS has not
yet focused attention on the certification and accreditation process for its non-major
applications.
Continuous Monitoring In addition to certifying and accrediting systems every three
years, NIST 800-37 requires that a system of continuous monitoring of systems be in
place. System owners must complete a self-assessment required by NIST at least
annually.
In our opinion, self-assessments conducted by the IRS using NIST SP 800-26 did not
include adequate testing of application controls. System owners often referred only to
the general support system controls to address security elements that should have been
reviewed at the application level. For example, a question on the self-assessment for a
major application, the Tax Return Data Base asks, “Are personnel files matched with
user accounts to ensure that terminated or transferred individuals do not retain system
access?” The response stated that controls are implemented and the scoring is based
on a composite score of several general support systems. The IRS responded similarly
to questions regarding password controls and audit trails for the Combined Annual
Wage Reporting, a major application that allows the IRS and the Social Security
Administration (SSA) to improve the accuracy of annual wage data reported by
comparing tax payments on IRS and SSA forms. In each of these examples, no
references were made in the self-assessment document to the application controls, only
to the controls of the general support system.
We found in our representative subset of 17 systems, that 9 systems (53 percent) had
been certified during FY 2005. We considered these systems to have been tested and
evaluated in FY 2005.
Tracking Corrective Actions As previously mentioned, during FY 2005 the IRS
revised its POA&M process and we are hopeful that the changes will be effective. The
IRS advised that it is tracking all security weaknesses in a database and developing
POA&Ms for the high priority weaknesses that they can address with available
                                             5

resources. Since the POA&Ms were not completed by the IRS until early September
2005, we did not have an opportunity to evaluate the IRS’ prioritization of weaknesses.
We were able to determine that the POA&Ms:
   •   include weaknesses from IRS internal reviews, as well as most TIGTA and
       Government Accountability Office reviews.
   •   are tailored to specific applications and no longer capture standard, repetitive
       wording as they did in past years.
   •   indicate that the IRS appears to have analyzed and prioritized weaknesses and
       have included corrective actions in the POA&Ms.
While additional refinements will be made during the coming year, we find the progress
made in this area noteworthy.
Training Employees with Key Security Responsibilities The OMB requires that all
employees with key security responsibilities be given security-related training at least
annually. In FY 2004, we reported that the Office of Mission Assurance and Security
Services did not have an adequate tracking process in place to ensure all employees
with significant security responsibilities were identified and trained. As a result, the IRS
did not accurately identify the number of employees with significant security
responsibilities or the number of employees trained.
In FY 2005, security awareness training was provided to all of its employees and
contractors. In its FY 2005 FISMA submission, the IRS reported it has 2,737
employees with significant information technology security responsibilities and that 300
(11 percent) of those employees received specialized training. We could not verify this
information since the IRS still has no tracking system in place to identify persons with
significant security responsibilities and the specialized training completed. The IRS
advised that it plans to implement a tracking system in FY 2006.
In prior audits, we have attributed several security weaknesses to a lack of adequate
training for system administrators. Since only 11 percent of these employees have
been trained this year according to the IRS, we expect these weaknesses to persist.
Oversight of Contractors FY 2005 OMB guidance for completing the agency and
Inspector General FISMA reports states that agency IT security programs apply to all
organizations which possess or use Federal information, or which operate, use, or have
access to Federal information systems on behalf of a Federal agency. Such other
organizations may include contractors, grantees, State and local governments, industry
partners, etc. FISMA guidelines emphasize OMB longstanding policy concerning
sharing government information and interconnecting systems. Therefore, Federal
security requirements continue to apply and the agency is responsible for ensuring
appropriate security controls. Agencies must develop policies for information security
oversight of contractors and other users with privileged access to Federal data. We
believe the following conditions indicate a need for significantly increased IRS oversight
of contractors and state agencies that have access to Federal tax data.
                                                        6

We conducted a separate review this year of the monitoring of contractor access to
networks and data.4 The overall objective of this review was to determine whether IRS
management implemented adequate controls over the PRIME contractor’s5 access to
IRS networks and data. We found the IRS gave the PRIME contractor the authority to
add, delete, and modify its own employees’ user accounts on IRS systems. Our review
showed that the PRIME contractor added user accounts without any oversight by the
IRS during at least a 1-year period.
We also conducted a separate review to determine whether State tax agencies were
protecting Federal tax information provided by the IRS from unauthorized use and
disclosure.6 Internal Revenue Code (I.R.C.) 6103 requires the IRS to disclose Federal
tax information to various state and Federal agencies. State tax agencies can use this
information to identify non-filers of State tax returns, determine discrepancies in the
reporting of income, locate delinquent taxpayers, and determine whether IRS
adjustments have State tax consequences. The IRS is responsible for ensuring that
State tax agencies properly safeguard federal tax information. To do this, the IRS’
Safeguard Program encompasses reviewing and approving Safeguard Procedures and
Safeguard Activity Reports submitted by State tax agencies and conducting on-site
Safeguard Reviews of each state tax agency at least once every 3 years. Based on the
instructions published by the OMB, it is our opinion that, as users of vast amounts of
Federal tax data, the States should be required to protect that data in accordance with
FISMA requirements. Accordingly, State agencies should be required to conduct
annual self-assessments using NIST Special Publication 800-26 and to track and
monitor corrective actions using POA&Ms.
However, the IRS does not require State agencies to conduct self-assessments of its
systems using NIST Special Publication 800-26 and does not require them to monitor
and track corrective actions using POA&Ms. In addition, the IRS has not provided
sufficient and timely reviews over the security of Federal tax information maintained by
the States. The IRS believes that States are not required to comply with FISMA
requirements because they do not use the Federal tax data they receive on behalf of
the IRS.
Security Configuration Policies Detailed security testing results were not provided
for our review for any systems. Therefore, we could not evaluate the extent of
implementation of the security configuration policies.
If you have any questions, please contact me or Margaret E. Begg, Assistant Inspector
General for Audit (Information Systems Programs), at (202) 622-8510.

4
  Monitoring of PRIME Contractor Access to Networks and Data Needs to Be Improved (Reference
Number 2005-20-185, dated September 2005).
5
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
6
  Increased IRS Oversight of State agencies Is Needed to Ensure Federal Tax Information Is Protected (Reference
Number 2005-20-184, dated September 2005).
                 7



Details of the TIGTA’s FISMA Analysis
                                                                  Section C: Inspector General. Questions 1, 2, 3, 4, and 5.
                                                                                       Agency Name:
                                                                                      Question 1 and 2
1. As required in FISMA, the IG shall evaluate a representative subset of systems, including information systems used or operated by an agency or by a contractor of an agency or
other organization on behalf of an agency. By FIPS 199 risk impact level (high, moderate, low, or not categorized) and by bureau, identify the number of systems reviewed in this
evaluation for each classification below (a., b., and c.).
             To meet the requirement for conducting a NIST Special Publication 800-26 review, agencies can:
             1) Continue to use NIST Special Publication 800-26, or,
             2) Conduct a self-assessment against the controls found in NIST Special Publication 800-53
             Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency, therefore, self reporting
             by contractors does not meet the requirements of law. Self reporting by another Federal agency, for example, a Federal service provider, may be sufficient. Agencies and service
             providers have a shared responsibility for FISMA compliance.
2. For each part of this question, identify actual performance in FY 05 by risk impact level and bureau, in the format provided below. From the representative subset of systems
evaluated, identify the number of systems which have completed the following: have a current certification and accreditation , a contingency plan tested within the past year, and
security controls tested within the past year.
                                                                                         Question 1                                                          Question 2
                                                                        a.                    b.                      c.                   a.                     b.                     c.
                                                                 FY 05 Agency         FY 05 Contractor FY 05 Total Number              Number of       Number of systems Number of systems
                                                                     Systems              Systems                of Systems        systems certified for which security              for which
                                                                                                                                    and accredited     controls have been contingency plans
                                                                                                                                                            tested and         have been tested in
                                                                                                                                                       evaluated in the last accordance with
                                                                                                                                                                 year          policy and guidance


                                     FIPS 199 Risk Impact       Total     Number   Total    Number  Total    Number   Total   Percent Total   Percent of Total   Percent of
Bureau Name                                  Level             Number    Reviewed Number Reviewed Number Reviewed Number of Total Number        Total    Number    Total
Bureau                                  High                           2         2        0       0        2        2       2 100.0%        0      0.0%        2    100.0%
                                        Moderate                      79       15         8       3       79      15       13 86.6%         9     60.0%        3     20.0%
                                        Low                            1         0        3       0        1        0       0   0.0%        0      0.0%        0      0.0%
                                        Not Categorized                                   1       0
                                    Sub-total                         82       17        12       3       82      17       15  88.2%        9     52.9%        5     29.4%
Agency Totals                           High                            2           2          0          0           2          2          2 100.0%             0       0.0%          2      100.0%
                                       Moderate                       79           15          8          3         79          15         13    86.6%           9      60.0%          3       20.0%
                                       Low                             1            0          3          0          1           0          0     0.0%           0       0.0%          0        0.0%
                                       Not Categorized                 0            0          1          0
                                    Total                             82           17         12          3         82          17         15    88.2%           9      52.9%          5       29.4%
                                                                                           Question 3
In the format below, evaluate the agency’s oversight of contractor systems, and agency system inventory.
                3.a.                The agency performs oversight and evaluation to ensure information systems used or operated by a          - Rarely, for example, approximately 0-50% of the
                                    contractor of the agency or other organization on behalf of the agency meet the requirements of FISMA, time"
                                    OMB policy and NIST guidelines, national security policy, and agency policy. Self-reporting of NIST
                                    Special Publication 800-26 requirements by a contractor or other organization is not sufficient, however,
                                    self-reporting by another Federal agency may be sufficient.
                                    Response Categories:
                                           - Rarely, for example, approximately 0-50% of the time
                                           - Sometimes, for example, approximately 51-70% of the time
                                           - Frequently, for example, approximately 71-80% of the time
                                           - Mostly, for example, approximately 81-95% of the time
                                           - Almost Always, for example, approximately 96-100% of the time
                                    The agency has developed an inventory of major information systems (including major national security
                                    systems) operated by or under the control of such agency, including an identification of the interfaces
                                    between each such system and all other systems or networks, including those not operated by or under
                                    the control of the agency.
                                    Response Categories:
               3.b.                       - Approximately 0-50% complete                                                                             - Approximately 96-100% complete
                                          - Approximately 51-70% complete
                                          - Approximately 71-80% complete
                                          - Approximately 81-95% complete
                                          - Approximately 96-100% complete
               3.c.                 The OIG generally agrees with the CIO on the number of agency owned systems.                                                        No

               3.d.                 The OIG generally agrees with the CIO on the number of information systems                                                          No
                                    used or operated by a contractor of the agency or other organization on behalf of the agency.
               3.e.                 The agency inventory is maintained and updated at least annually.                                                                   Yes
                3.f.                The agency has completed system e-authentication risk assessments.                                                                  Yes
                                                                                             Question 4
Through this question, and in the format provided below, assess whether the agency has developed, implemented, and is managing an agency wide plan of action and milestone (POA&M)
process. Evaluate the degree to which the following statements reflect the status in your agency by choosing from the responses provided in the drop down menu. If appropriate or necessary,
include comments in the area provided below.

For items 4a.-4.f, the response categories are as follows:
       - Rarely, for example, approximately 0-50% of the time
       - Sometimes, for example, approximately 51-70% of the time
       - Frequently, for example, approximately 71-80% of the time
       - Mostly, for example, approximately 81-95% of the time
       - Almost Always, for example, approximately 96-100% of the time
               4.a.                 The POA&M is an agency wide process, incorporating all known IT security weaknesses associated              - Almost Always, for example, approximately 96-
                                    with information systems used or operated by the agency or by a contractor of the agency or other          100% of the time
               4.b.                 Wheni antiIT security
                                                    b h weakness
                                                          lf f th is identified, program officials (including CIOs, if they own or operate a    - Almost Always, for example, approximately 96-
                                    system) develop, implement, and manage POA&Ms for their system(s).                                         100% of the time
               4.c.                 Program officials, including contractors, report to the CIO on a regular basis (at least quarterly) on their - Almost Always, for example, approximately 96-
               4.d.                      di ti
                                    CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly basis.                 100%  f thAlways,
                                                                                                                                                 - Almost    ti      for example, approximately 96-
               4.e.                 OIG findings are incorporated into the POA&M process.                                                        100%  f th  ti for example, approximately 71-80% of
                                                                                                                                                 - Frequently,
               4.f.                 POA&M process prioritizes IT security weaknesses to help ensure significant IT security weaknesses          - Almost Always, for example, approximately 96-
                                    are addressed in a timely manner and receive appropriate resources                                         100% of the time
Comments: Question 1.a - The IRS has a total of 280 systems, 199 of which are non-major applications. IRS is reporting only its 82 major systems, which we believe is contrary to OMB
guidance which requires that all systems be reported. To be consistent with other Treasury bureaus, we are including 82 in our template. However, we selected our representative subset of
systems from the population of 280 systems. Questions 1.b & 1.c - IRS has 12 contractor support functions that require oversight. We have reported these in Question 1.b; however, since these
are not systems, they are not reflected in the total in Question 1.c. Question 2.a - The IRS reported that it has certified and accredited 90% of its major systems. However, only 35 percent of its
280 systems have been certified and accredited. Question 2.b - Self-Assessment performance levels for Major Applications are often based on the performance level for the associated GSS
Question 3.a - We reviewed 3 off IRS' 12 contractor systems and found IRS' reviews to be generally adequate. We conducted separate reviews this year of IRS's monitoring of contractor access
to networks and data and whether State agencies adequately protect federal tax data. These reviews showed the need for significantly increased oversight by the IRS of contractors and State
agencies. Question 3.c - As stated in the comments for Question 1.a, we disagree that IRS should report only its major systems in its FISMA report. Question 3.d. We believe OMB guidance
requires IRS to include State agencies that receive Federal Tax Information as contractors.

                                                                                             Question 5
OIG Assessment of the Certification and Accreditation Process. OMB is requesting IGs to provide a qualitative assessment of the agency’s certification and accreditation process, including
adherence to existing policy, guidance, and standards. Agencies shall follow NIST Special Publication 800-37, “Guide for the Security Certification and Accreditation of Federal Information
Systems” (May, 2004) for certification and accreditation work initiated after May, 2004. This includes use of the FIPS 199 (February, 2004), “Standards for Security Categorization of Federal
Information and Information Systems,” to determine an impact level, as well as associated NIST documents used as guidance for completing risk assessments and security plans.
                                   Assess the overall quality of the Department's certification and accreditation process.                 - Satisfactory
                                   Response Categories:
                                        - Excellent          - Good        - Satisfactory         - Poor         - Failing


Comments: Question 5 - IRS prioritized its C&A efforts by focusing attention first on its General Support Systems (GSS) during FY 2005 and has recently begun to focus attention on
improvement of the C&A process for its MAs. We found the C&A documentation for the GSSs was generally in compliance with NIST standards; however, application controls for non-major
systems were not sufficiently addressed in the GSS security plans. C&A documentation for the MAs needs improvement. System Security Plans and Security Test and Evaluation documents
for MAs generally did not comply with NIST standards. Controls presented in the plans were not sufficiently detailed and were not based on FIPS 199 security impact levels. Tests did not include
all system components such as encryption, datacom links and user account management.
                                                                  Section B: Inspector General. Question 6, 7, 8, and 9.
                                                                                     Agency Name:
                                                                                            Question 6
       6.a.             Is there an agency wide security configuration policy? Yes or No.                                                               Yes
                        Comments:
       6.b.             Configuration guides are available for the products listed below. Identify which software is addressed in the agency wide security configuration policy.
                        Indicate whether or not any agency systems run the software. In addition, approximate the extent of implementation of the security configuration policy on
                        the systems running the software.
                                                                 Addressed in agencywide         Do any agency systems     Approximate the extent of implementation of the security
                                                                         policy?                   run this software?      configuration policy on the systems running the software.
                                                                                                                           Response choices include:
                                                                                                                           - Rarely, or, on approximately 0-50% of the
                                                                                                                             systems running this software
                                                                            Yes, No,                     Yes or No.        - Sometimes, or on approximately 51-70% of
                                                                             or N/A.                                         the systems running this software
           Product                                                                                                         - Frequently, or on approximately 71-80% of
                                                                                                                             the systems running this software
                                                                                                                           - Mostly, or on approximately 81-95% of the
                                                                                                                             systems running this software
                                                                                                                           - Almost Always, or on approximately 96-100% of the
                                                                                                                           systems running this software


                                                                                                                                 - Rarely, or, on approximately 0-50% of the systems
              Windows XP Professional
                                                                               Yes                          Yes            running this software
                                                                                                                                 - Rarely, or, on approximately 0-50% of the systems
              Windows NT
                                                                               Yes                          Yes            running this software
                                                                                                                                 - Rarely, or, on approximately 0-50% of the systems
              Windows 2000 Professional
                                                                               Yes                          Yes            running this software
                                                                                                                                 - Rarely, or, on approximately 0-50% of the systems
              Windows 2000 Server
                                                                               Yes                          Yes            running this software
                                                                                                                                 - Rarely, or, on approximately 0-50% of the systems
              Windows 2003 Server
                                                                               Yes                          Yes            running this software
                                                                                                                                 - Rarely, or, on approximately 0-50% of the systems
              Solaris
                                                                               Yes                          Yes            running this software
                                                                                                                                 - Rarely, or, on approximately 0-50% of the systems
              HP-UX
                                                                               Yes                          Yes            running this software
                                                                                                                                 - Rarely, or, on approximately 0-50% of the systems
              Linux
                                                                               Yes                          Yes            running this software
                                                                                                                                 - Rarely, or, on approximately 0-50% of the systems
              Cisco Router IOS
                                                                               Yes                          Yes            running this software
                                                                                                                                 - Rarely, or, on approximately 0-50% of the systems
              Oracle
                                                                               Yes                          Yes            running this software
            Other. Specify:
Comments: Detailed security testing results were not provided for our review for any systems. Therefore, we rated the extent of implementation of the security
configuration policy as Rarely, or, on approximately 0-50% o f the systems running each software product.

                                                                                            Question 7

Indicate whether or not the following policies and procedures are in place at your agency. If appropriate or necessary, include comments in the area provided below.
       7.a.             The agency follows documented policies and procedures for identifying and reporting                                             Yes
                        incidents internally. Yes or No.
      7.b.        The agency follows documented policies and procedures for external reporting to law                                  Yes
                  enforcement authorities. Yes or No.
                  The agency follows defined procedures for reporting to the United States Computer
       7.c.                                                                                                                            Yes
                  Emergency Readiness Team (US-CERT). http://www.us-cert.gov. Yes or No.
Comments:
                                                                           Question 8
        8         Has the agency ensured security training and awareness of all employees, including      - Rarely, or, approximately 0-50% of employees have sufficient
                                                                                                          training
                  contractors and those employees with significant IT security responsibilities?
                  Response Choices include:
                  - Rarely, or, approximately 0-50% of employees have sufficient training
                   - Sometimes, or approximately 51-70% of employees have sufficient training
                   - Frequently, or approximately 71-80% of employees have sufficient training
                   - Mostly, or approximately 81-95% of employees have sufficient training
                   - Almost Always, or approximately 96-100% of employees have sufficient training
Comments: IRS has provided security awareness training to all of its employees and contractors. IRS reported it has 2737 employees with significant IT
security responsibilities and that 300 of those received specialized training. We could not verify this information because IRS currently has no tracking
mechanisms to identify persons with significant security responsibilities and the specialized training they received. IRS expects to have these controls
implemented during FY 2006.
                                                                           Question 9
        9         Does the agency explain policies regarding peer-to-peer file sharing in IT security                                  Yes
                  awareness training, ethics training, or any other agency wide training?
                  Yes or No.
